                          U.S. Department of Education
                         Office of Inspector General




             1998 Reauthorization
  OIG
                        of the
Proposals
             Higher Education Act




            July 1997                       S15-60006
Dear Member of Congress:

The purpose of this letter is to transmit the Office of Inspector General’s recommendations for
amendments to the Higher Education Act (HEA). This is in accordance with our mission to
promote the efficient and effective use of taxpayer dollars in support of education and to provide
independent and objective assistance to the Congress to assure continuous improvement in
program delivery, effectiveness, and integrity.

As we have reported in previous testimonies, there are persistent problems in the programs
covered by the HEA that require statutory change. Our suggestions for amendments to the HEA
are based on audits and investigations performed in compliance with our mission and are intended
to address weaknesses and problems that we have identified. We are providing you with
seventeen proposals that have been divided into four areas: 1) Institutional eligibility and
enforcement; 2) Student Eligibility; 3) Loan Programs; and 4) Law enforcement.

We appreciate the opportunity to share our proposals with you. We share your dedication to
improving the programs and your concern for the students, the primary beneficiaries of the HEA.
Should you have any questions or comments regarding our recommendations, we would welcome
the opportunity to discuss them.

                                             Sincerely,


                                             Thomas R. Bloom
                                                                                                                 U.S. Department of Education
                                                                                                                  Office of Inspector General
                                                                                                                                     S15-60006




                                                     Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Institutional Eligibility and Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Legislate Performance Standards for Vocational Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Eliminate Pell Eligibility for High-Default Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          Restrict Distance Learning to Academic Degree Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          Require Schools to Post a Surety When Appealing Loss of Eligibility Due to High Default Rates               12
          Legislate Separate Statutory Requirements for Vocational Trade Schools . . . . . . . . . . . . . . 14
          Eliminate the 25-Year-Old Requirement For Pell Advance Funding . . . . . . . . . . . . . . . . . . . 20

Student Eligibility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
          Require Verification of Applicants’Income Data with IRS . . . . . . . . . . . . . . . . . . . . . . . . . 23
          Limit Professional Judgment by Financial Aid Administrators . . . . . . . . . . . . . . . . . . . . . . . . 26


Loan Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
          Require Annual Reconciliation of NSLDS Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
          Change the Definition of Loans in Repayment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
          Standardize Accounting and Reporting for Guaranty Agency Reserve Funds . . . . . . . . . . . . 34
          Require Certification of Refund Liabilities by Vocational Trade Schools . . . . . . . . . . . . . . . . 36
          Require Discharge of Loans to the Extent of Unpaid Refunds for Student Victims . . . . . . . . 39
          Prohibit Consolidation of Defaulted Loans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
          Require the Determination of the Ability to Repay PLUS Loans and Require Joint
                 Parent/Student Liability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

Law Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
          Require That SFA Records Be Retained for Five Years and That Certain Original Records Be
                 Retained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
          Apply the Extended Statute of Limitation for Financial Institution Fraud to the FDLP . . . . . 52
                                                                                    U.S. Department of Education
                                                                                    Office of Inspector General
                                                                                                      S15-60006



EXECUTIVE SUMMARY

The 105th Congress has an opportunity to improve substantially the integrity of the Student Financial
Assistance (SFA) programs and save taxpayers and students significant amounts of money through the
1998 reauthorization of the Higher Education Act (HEA). During the 1992 HEA reauthorization,
Congress legislated a number of helpful reforms, including the 50-percent limitation on ability-to-benefit
students, the requirement for trade schools to certify that no more than 85 percent of their funding is
derived from HEA Title IV programs, statutory financial responsibility standards, and controls on
institutional practices such as 30-day delayed disbursement, pro rata refunds, and multiple loan
disbursements. The Office of Inspector General (OIG) believes that Congress should build on those
reforms and continue to improve the integrity of the SFA programs.

To assist Congress in this important task, the OIG has prepared the following recommendations for
amendments to the HEA. These recommendations are based on OIG audits, investigations and other
data about fraud, waste and abuse in the SFA programs.

The OIG recommendations are organized into four major areas:

       !       Institutional eligibility and enforcement
       !       Student eligibility
       !       Loan programs
       !       Law enforcement

Each proposal sets forth our position, the current law, the recommended change to the law, and our
rationale for the proposed change, as summarized below.

Institutional Eligibility         The mechanisms for ensuring that only high quality and well-
and Enforcement                   administered schools participate in the SFA programs continue to need
                                  improvement in order to ensure the integrity of the programs. We
                                  recommend that Congress --

                                  !     legislate performance standards for vocational schools,
                                  !     eliminate Pell eligibility for high-default schools,
                                  !     restrict distance learning to academic degree programs,
                                  !     require schools to post a surety when appealing loss of
                                        eligibility due to high-default rates,
                                  !     legislate separate statutory requirements for vocational trade
                                        schools, and
                                  !     eliminate the 25-year-old requirement for Pell advance funding.




                                                     i
                                                                                U.S. Department of Education
                                                                                Office of Inspector General
                                                                                                  S15-60006



Student Eligibility          In order to ensure that students are receiving appropriate amounts of
                             federal aid, we recommend that Congress --

                             !     require verification of applicants’income data with IRS, and
                             !     limit professional judgment by financial aid administrators.

Loan Programs                Effective management of the loan programs is dependent upon
                             accurate and timely data. Therefore, we recommend that Congress --

                             !     require annual reconciliation of NSLDS data,
                             !     change the definition of loans in repayment, and
                             !     standardize accounting and reporting for guaranty agency
                                   reserve funds.

                             In order to ensure that students are receiving their refunds, we
                             recommend that Congress --

                             !     require certification of refund liabilities by vocational trade
                                   schools, and
                             !     require discharge of loans to the extent of unpaid refunds for
                                   student victims.

                             In addition, to protect the integrity and reduce the cost of the
                             Consolidation and PLUS loan programs, we recommend that Congress
                             --

                             !     prohibit the consolidation of defaulted loans, and
                             !     require the determination of the ability to repay PLUS loans and
                                   require joint parent/student liability.

Law Enforcement              Due to the length of time it takes to prepare complex court cases
                             against institutions that defraud the SFA programs, we recommend
                             that Congress --

                             !     require that SFA records be retained for five years and that
                                   certain original records be retained, and
                             !     apply the extended statute of limitation for financial institution
                                   fraud to the FDLP.


CONTACT PERSON: Ellen Bass, Counsel to the Inspector General and Legislative Liaison


                                               ii
                                                                              U.S. Department of Education
                                                                              Office of Inspector General
                                                                                                S15-60006



Institutional Eligibility and Enforcement

                             To ensure the quality of vocational training funded by the Student
 Legislate Performance       Financial Assistance (SFA) programs, schools that provide
 Standards for Vocational    vocational training programs (i.e., proprietary institutions of higher
 Schools                     education and postsecondary vocational institutions) should be
                             required to meet statutory performance standards for student
                             outcomes as an eligibility criterion for participation in the SFA
                             programs, in particular specific criteria for completion and job
                             placement rates. Currently, most vocational schools can continue to
                             participate in SFA programs even though they provide inadequate
                             training for jobs that may not be available, and, as a result, have
                             extremely low completion and job placement rates. This results in
                             substantial harm to both the students and the taxpayers when
                             millions of dollars of SFA funds are spent annually on unsuccessful
                             training.


                             Several provisions of the current Higher Education Act (HEA)
      Current Law
                             reflect the legislative intent that vocational training financed with
        Provides
                             SFA funds is to prepare students for gainful employment. Section
                             481 of the HEA defines a “proprietary institution of higher
                             education” and a “postsecondary vocational institution” as

                                 “... a school (1) which provides an eligible program of
                                 training to prepare students for gainful employment in a
                                 recognized occupation...”

                             Substantially the same language appears in the definition of an
                             “eligible program.” Section 481 (e) (1) (A) of the HEA defines a
                             short-term program as

                                 “600 clock hours of instruction, 16 semester hours, or 24
                                 quarter hours, offered during a minimum of 15 weeks, in
                                 the case of a program that - (i) provides a program of
                                 training to prepare students for gainful employment in a
                                 recognized profession; and (ii) admits students who have
                                 not completed the equivalent of an associate degree...”

                             As a result of the 1992 amendments to the HEA, short-term
                             programs of at least 300 clock hours, but less than 600 clock hours,

                                            Page 1
                                                                        U.S. Department of Education
                                                                        Office of Inspector General
                                                                                          S15-60006



                        are required to have performance standards for completion and job
                        placement as an eligibility criterion. Section 481 (2) (A) of the HEA
                        provides the requirement that such a program

                            “(i) has a verified completion rate of at least 70 percent,
                            as determined in accordance with the regulations of the
                            Secretary;

                            (ii) has a verified placement rate of at least 70
                            percent, as determined in accordance with the
                            regulations of the Secretary;...”

                        For other eligible institutions and programs, in the HEA amendments
                        of 1992 Congress deferred to the accrediting agencies to establish
                        performance standards for their member schools as a condition for
                        accreditation status. Section 496 (a) (5) requires that accrediting
                        agencies recognized for purposes of the SFA programs assess,
                        among other things, an institution’s

                            “success with respect to student achievement in
                            relation to its mission, including, as appropriate,
                            consideration of course completion, State licensing
                            examination, and job placement rates.”


                        The definitions of “proprietary institution of higher education” and
Suggested Legislative
                        “postsecondary vocational institutions” in section 481 of the HEA
      Change
                        should be amended to add a requirement for measurable
                        performance standards at least in the areas of completion and job
                        placement rates. The definition could include, at a minimum,
                        substantially the same language as that now in section 481 (c) (1)
                        (A) for short-term programs, i.e.,

                            ...on an annual basis has a verified completion rate of at
                            least 70 percent and has a verified placement rate of at least
                            70 percent.




                                       Page 2
                                                                   U.S. Department of Education
                                                                   Office of Inspector General
                                                                                     S15-60006



                    Although “proprietary institutions of higher education” and
 Why Current Law
                    “postsecondary vocational institutions” are supposed to train
Should Be Changed
                    graduates for gainful employment there are generally no statutory
                    performance standards to ensure they do so. Except for the short-
                    term vocational training programs offering programs between 300
                    and 600 clock hours, there is no statutory performance standard that
                    these schools have to meet to become eligible and to maintain
                    eligibility for the SFA programs. These institutions that measure
                    their vocational programs in credit hours or provide programs of at
                    least 600 clock hours avoid the statutory performance standards.

                    The Office of Inspector General (OIG) first reported in March 1987
                    that many students who received SFA funds were being trained for
                    occupations for which there were limited employment opportunities.
                    In March 1993, we again reported that for students enrolled in
                    vocational training programs, the current system affords little
                    assurance that the training provided will lead to gainful employment.
                    Our study focused on supply and demand data from the cosmetology
                    profession. We concluded that SFA programs provided millions of
                    dollars for cosmetology training for students that never completed
                    their programs, and the supply of licensed cosmetologists being
                    trained annually far exceeded the demand for cosmetologists.
                    Without jobs, students do not pay taxes and default on loans more
                    frequently. We recommended that the U.S. Department of
                    Education (Department) seek legislative change to the SFA funding
                    system to consider labor market needs and the success rate of
                    schools in placing graduates for vocational training programs.

                    The HEA provided for the accrediting agencies to establish
                    standards for their schools to measure the success of student
                    outcomes. In May 1995, we reported on the progress of five
                    accrediting agencies in developing and implementing standards for
                    student outcomes. These agencies accredited schools that offer
                    vocational training programs and we looked specifically at their
                    standards for completion and job placement rates. We found that the
                    accrediting agencies had made little progress in developing
                    performance standards. The agencies were generally not using
                    performance measures to evaluate the success of their member
                    schools; and the agencies were reluctant to use performance data to
                    assess the effectiveness of schools’job training programs because
                    they did not view their role as government regulators. Several


                                  Page 3
                                                U.S. Department of Education
                                                Office of Inspector General
                                                                  S15-60006



agencies suggested that the Department define the outcome
measures and establish standards for SFA-funded job training.

The Department took the position that the accrediting agencies
should be allowed flexibility in developing their standards, and the
standards do not necessarily have to be numerical or absolute. The
standards could be goals that schools should work to, but may never
achieve.

We unsuccessfully elevated the audit dispute to the Department’s
Audit Follow-up Official in May 1996. A follow-up OIG review of
accrediting agencies during 1996 found that, while some accrediting
agencies were developing performance standards, none of the
agencies were enforcing compliance by their member schools.

Performance standards are needed to measure, in particular, the
success of schools that admit Ability-To-Benefit (ATB) students.
Congress and the Department have struggled for many years to
regulate appropriately schools admitting ATB students, and there
has been a great deal of fraud and abuse in the area of eligibility for
ATB students. An OIG study indicated that proprietary vocational
schools that require high school credentials for admission have a
significantly lower default rate than those schools that admit students
under ATB testing. In comparing schools requiring high school
credentials for admission to those that admit under ATB testing, the
average default rate rose from 16 percent to 28 percent. Default
rates also increased from 28 percent to 38 percent as the percentage
of ATB enrollments increased from 10 percent to 20 percent.
Performance standards for completion and job placement rates
should reduce defaults at schools that admit ATB students.

Legislating verifiable performance standards will also help to address
abuses we have found through OIG investigations such as recruiting
students who are likely never to attend class or withdraw from the
program. For example, one OIG investigation of an institution
revealed that it cost taxpayers approximately $485,000 in SFA
program funds for each of eight state cosmetology licenses obtained
by the few students who completed the program relative to the large
number of students for whom the school received Pell Grants. In
another investigation of a California institution, we discovered that
only 186 out of 968 students graduated from a hotel/resort
management travel program, costing approximately $11,800 per

               Page 4
                                                             U.S. Department of Education
                                                             Office of Inspector General
                                                                               S15-60006



             graduate. Only two of the 186 students were confirmed as placed in
             jobs for which the institution purported to train them at a cost of
             $1.1 million in federal funds per job.

             Other OIG investigations revealed that institutions received SFA
             funds for students who did not have the ability to benefit from the
             program. For example, an Ohio institution recruited vast numbers of
             students who were not capable of or motivated to get an education
             and therefore, could be counted on to drop out early in the program.
             These actions allowed the institution to receive federally insured
             student loan funds of over $101 million and Pell Grant funds of $42
             million during a four-year period for students who essentially did not
             have the ability to benefit from the institution’s program. In another
             case, an institution in California enrolled students who could not
             pass the entrance exam and allowed, in some cases, employees of the
             institution to complete the test for the prospective students.

             Another problem with the current system relying on accrediting
             agencies is that the performance data provided by schools is
             unverified. Statutory standards will allow independent audits of
             schools’data. OIG investigations have recorded instances where
             institutions have falsified student enrollment and attendance
             documents to disguise low student completion and graduation rates.
             The Ohio institution discussed above concealed its 50 percent
             withdrawal rate by filing accrediting agency annual reports that
             contained false and fraudulent figures.

             We believe that what you measure you get. Unless the Congress
             mandates completion and job placement rates for proprietary and
             postsecondary vocational schools, there will be no assurance of the
             quality of the vocational training programs funded through the SFA
             programs. A 70 percent completion rate and a 70 percent placement
             rate are modest standards; it means that only 49 percent or almost
             one out of two students who enroll is successful in obtaining gainful
             employment. This is not an unreasonable expectation for these
             schools to achieve.


References   1.   OIG audit report Improvements Needed in Delivery of
                  Vocational Training, ACN 04-30063, dated March 1987.



                           Page 5
                                           U.S. Department of Education
                                           Office of Inspector General
                                                             S15-60006



2. OIG Management Improvement Report No. 93-03, Title IV
   Funding for Vocational Training Should Consider Labor
   Market Needs and Performance Standards, dated March 12,
   1993.

3. OIG audit report Managing for Results, Review of
   Performance-Based Systems at Selected Accrediting Agencies,
   ACN 06-30004, dated May 8, 1995.

4. OIG Memorandum on Impact of Ability-To Benefit Provision
   on Student Loan Default and Graduation Rates, dated
   December 5, 1996.


      ‚   ‚    ‚       ‚   ‚




              Page 6
                                                                                U.S. Department of Education
                                                                                Office of Inspector General
                                                                                                  S15-60006



                             The loss of a school’s eligibility to participate in the Pell Grant
Eliminate Pell Eligibility   program because of three consecutive years of high loan default
for High-Default Schools     rates should be made part of the general eligibility criteria
                             incorporated into the HEA. Based upon our experience with these
                             schools, we believe that the prohibition on participation in the Pell
                             Grant program for high-default schools is a good anti-fraud, waste,
                             and abuse measure and should be incorporated into the HEA so that
                             it will have effect for more than one year at a time. Such action
                             would reduce expenditures to the Pell Grant program by about $5
                             million annually.


                             Section 512 of the Omnibus Consolidated Rescissions and
     Current Law
                             Appropriations Act of 1996 (P. L. 104-134) provides that a school
       Provides
                             ineligible to participate in a Title IV loan program under section
                             435(a) (2) of the HEA (three consecutive years of high default rates)
                             may not receive funding under the Pell Grant program for the 1996-
                             97 award year. Because the provision appears in appropriations
                             legislation, it applies to only one year.


  Suggested Legislative      Section 481 of the HEA should include a provision that schools that
        Change               lose eligibility for Title IV loan programs pursuant to section 435 (a)
                             (2) (high default rates) will also lose eligibility for the Pell Grant
                             program for the same period.


                             Department data reflect that 48 schools lost eligibility for the Pell
    Why Current Law
                             Grant program during the 1996-97 award year due to high default
   Should Be Changed
                             rates for loans. The estimated savings to the Pell Grant program
                             was about $4.6 million for the 48 schools for the one year.

                             The statutory default initiative has proven to be an effective and
                             efficient mechanism for eliminating from the loan programs schools
                             whose students default at a high rate. An underlying rationale for
                             the default initiative is that schools with high default rates are not
                             successful in placing their students in jobs, at all, or in jobs that pay a
                             sufficient salary or wage to allow their students to pay off the loans
                             they have incurred to get training for those jobs. In addition, under
                             Department regulations, schools with three consecutive years of
                             cohort default rates in excess of 25 percent are considered to lack
                             administrative capability to participate in all the SFA programs.

                                             Page 7
                                                 U.S. Department of Education
                                                 Office of Inspector General
                                                                   S15-60006



The Pell funding cut off would affect primarily proprietary schools,
and as of January 1997, the Department had removed 203
proprietary schools from participation in the loan programs because
of high default rates. Most of the schools were short-term
vocational trade schools offering less than-two-year programs.
Department data also reflect that despite the default initiative,
proprietary schools still have the highest default rates: 21 percent for
all proprietary schools and 23 percent for proprietary schools with
less-than-two-year programs versus 6.8 percent for public, four-year
programs and 6.3 percent for private, four-year programs. OIG has
found that fraud, waste, and abuse is most prevalent at such schools.

Several major OIG criminal cases demonstrate the risk of loss where
schools removed from the loan programs remained eligible for Pell
Grants and drove up their Pell Grant receipts by using fraudulent or
abusive practices. For example, at a vocational school in California
the owners and financial aid director engaged in a scheme to retain
Pell Grant monies for no-show students after losing their eligibility
for loans. OIG’s investigation resulted in an indictment for one of
the owners and the financial aid director. The owners and officers
are alleged to have defrauded the government of over $1 million for
the period covered by the indictment. Another OIG investigation in
Chicago resulted in an indictment of owners of a beauty school chain
which, after being restricted in its use of loans and ultimately being
removed from participating in the loan program for high default
rates, substantially increased its Pell receipts by aggressive
recruitment of unlikely cosmetology students, by substantially and
arbitrarily increasing the up-front equipment charge, and drawing
down and retaining Pell Grants for no-show students. For the two-
year period covered by the indictment, it is alleged that school
owners defrauded the government of at least $1.3 million.

       ‚    ‚    ‚       ‚   ‚




                Page 8
                                                                                       U.S. Department of Education
                                                                                       Office of Inspector General
                                                                                                         S15-60006



                                 Institutions that propose to offer “distance learning” courses would
Restrict Distance                not be eligible for SFA program funds under current legal
Learning to Academic             restrictions if correspondence and/or telecommunications courses
Degree Programs                  made up more than 50 percent of the courses at the institution.
                                 These restrictions were a direct response to the costly fraud, waste
                                 and abuse that resulted from the participation in the SFA programs
                                 of a number of correspondence vocational training programs prior
                                 to 1992. If Congress were persuaded that these limitations unduly
                                 restrict the development of distance learning programs, OIG
                                 recommends that any amendment of current law be limited to
                                 institutions that provide two- or four-year programs leading to a
                                 recognized associate, bachelor or graduate degree.


                                 There are no provisions in the current law that specifically address
     Current Law
                                 “distance learning.” However, the HEA limits the eligibility of
       Provides
                                 institutions that offer courses by correspondence and
                                 telecommunications. Based upon our understanding of “distance
                                 learning” proposals, such courses would be subject to the current
                                 statutory restrictions for telecommunications and correspondence
                                 courses (see definition of “telecommunications,” HEA section
                                 484(l)(4)).1 Section 484(l) provides that institutions offering
                                 associate, bachelor or graduate degree programs may be eligible for
                                 the SFA programs

                                      “unless the total amount of telecommunications and
                                      correspondence courses at such institution equals or
                                      exceeds 50 percent of such courses.”

                                 Section 481(a) (3) (A) and (B) limits the participation in SFA
                                 programs of schools offering correspondence courses. Such schools
                                 are not eligible if over 50 percent of their courses are
                                 correspondence courses or if over 50 percent of their students are
                                 enrolled in correspondence courses. However, the law also
                                 provides that for two- and four-year, degree-granting institutions,
                                 the Secretary may waive the 50 percent limitation on correspondence
                                 courses “for good cause.”



       1      Information on the Internet about distance learning from the “Distance Education and Training
              Council” indicates that there is no difference between distance learning and
              correspondence/telecommunications study.

                                                  Page 9
                                                                       U.S. Department of Education
                                                                       Office of Inspector General
                                                                                         S15-60006



                      If Congress believes that the law should be less restrictive in order to
Considerations For
                      encourage “distance learning” using Internet, interactive and other
Legislative Changes
                      “virtual” technology, OIG’s position is that the statutory change
                      should be limited to distance learning programs that provide two- or
                      four-year programs that lead to a recognized associate, bachelor or
                      graduate degree. To avoid the return of the abuses of the past and
                      mitigate the special difficulties the Department encountered in
                      regulating such schools, correspondence and telecommunications
                      programs of vocational training should remain subject to current
                      statutory restrictions.


                      A number of OIG significant administrative, civil and/or criminal
 Why Current Law
                      cases were based upon the failure of vocational correspondence
 Changes Should Be
                      programs to meet course length requirements and to pay refunds,
      Limited
                      which were areas that were especially difficult for the Department to
                      regulate for correspondence schools. For example, a False Claims
                      Act suit against owners of a correspondence truck driving and
                      secretarial school in Delaware, that received over $40 million in
                      grants over a four-year period and $234 million in loan proceeds
                      over a five-year period, alleging fraudulent misrepresentation of
                      course length and failure to pay at least $6 million in refunds,
                      resulted in a significant settlement. The owners and certain school
                      officials also pled guilty to a variety of criminal charges in
                      connection with the fraud at the school.

                      The government recovered relatively little, however, in a settlement
                      of another civil fraud suit alleging misrepresentation of course
                      length against a correspondence truck driving/heavy equipment
                      operation school (in Indiana) that received over $63 million in one
                      year from the SFA programs. A Texas correspondence truck driving
                      school, which over a two-year period received about $21 million in
                      SFA program funds, failed to pay over $2.6 million in refunds. The
                      owner and several employees were indicted on mail fraud, false
                      statements, money laundering and other criminal charges. The
                      owner’s assets were ultimately forfeited as a result of a plea
                      agreement.

                      In a number of OIG audits of correspondence truck driving,
                      secretarial, and other vocational schools, we found that such schools
                      were inflating the length of their courses. Based on the actual course
                      length, these institutions should not have received SFA funding for

                                     Page 10
                                                             U.S. Department of Education
                                                             Office of Inspector General
                                                                               S15-60006



             the correspondence courses. For example, in an audit of a travel
             agent and secretarial school in Florida, we recommended a refund of
             $50 million.

             In 1992 GAO issued a report titled Stafford Student Loan Program -
             Correspondence Schools’Loan Volume Declines Sharply. GAO
             found that the borrower default rates for students attending
             correspondence schools were more than double the rate, 42.2
             percent versus 18.3 percent, of all schools participating in the
             Stafford program during fiscal years 1987-89.

             The fall out from the participation of vocational correspondence
             schools still presents significant regulatory challenges. For example,
             the Department has had difficulty in enforcing the “closed school”
             discharge under section 437 of the HEA for nine vocational
             correspondence schools which were unable to provide accurate
             attendance data. Five of these nine correspondence schools had
             been audited or investigated by the OIG, and significant violations of
             law or regulation were found.

             The Distance Education and Training Council (DETC), formerly the
             National Home Study Council, (the accrediting agency for the
             vocational correspondence schools), is now the accrediting agency
             for distance learning schools.


References   1.   Facts about the DETC.

             2.   OIG audit report Audit of the Title IV Student Financial
                  Assistance Programs Administered by County Schools, INC.
                  Bridgeport, Connecticut, ACN 01-00001, dated April 1991.

             3.   OIG audit report Andover Tractor Trailer School, Inc.,
                  Methuen - Administration of the Title IV Student Financial
                  Assistance Programs, ACN 01-90003, dated December 1990.

             4.   OIG audit report Report on Review of Administration of
                  Federal Student Financial Assistance Programs at National
                  Training, Inc. Orange Park, Florida, ACN 04-00006, dated
                  February 1992.

                    ‚    ‚     ‚       ‚   ‚

                             Page 11
                                                                               U.S. Department of Education
                                                                               Office of Inspector General
                                                                                                 S15-60006



                             Schools should be required to post a surety as a condition to
Require Schools to Post a    appealing the loss of their eligibility to participate in the Federal
Surety When Appealing        Family Education Loan Program (FFELP) based on their excessive
Loss of Eligibility Due to   cohort default rates. Such a requirement will provide a needed level
High Default Rates           of protection to taxpayers who, if the school loses its appeal, suffer
                             the unnecessary loss of millions of dollars in additional defaults and
                             incur loan discharge costs when schools close.


                             Currently, a school appealing revocation of its eligibility to
     Current Law
                             participate in FFELP, based on its high default rates, continues to
       Provides
                             receive additional loans and is not required to post a surety during
                             the appeal process. Section 435 (2) (A) of the HEA, states:

                                 “An institution whose cohort default rate is equal to or
                                 greater than the threshold percentage specified in
                                 subparagraph (B) for each of the three most recent fiscal
                                 years for which data are available shall not be eligible to
                                 participate in a program under this part for the fiscal year
                                 for which the determination is made and for the two
                                 succeeding fiscal years, unless, within 30 days of receiving
                                 notification from the Secretary of the loss of eligibility under
                                 this paragraph, the institution appeals the loss of its
                                 eligibility to the Secretary.... During such appeal, the
                                 Secretary may permit the institution to continue to
                                 participate in a program under this part.”

                             Section 437 (c) (1) of the HEA provides for the discharge of loans
                             due to school closure as follows:

                                 “If a borrower who received, on or after January 1, 1986, a loan
                                 made, insured, or guaranteed under this part and the student
                                 borrower, or the student on whose behalf a parent borrowed, is
                                 unable to complete the program in which a student is enrolled due
                                 to the closure of the institution ... then the Secretary shall
                                 discharge the borrower’s liability on the loan (including interest
                                 and collection fees) by repaying the amount owed on the loan ...”


                             Our proposal would require a school to post a surety during the
 Suggested Legislative
                             process of appealing the loss of its eligibility to participate in
       Change




                                           Page 12
                                                                     U.S. Department of Education
                                                                     Office of Inspector General
                                                                                       S15-60006



                    FFELP based on the school’s default rate. Section 435 (2) (A) of
                    the HEA should be amended as follows:

                        During such appeal, the Secretary may permit the institution
                        to continue to participate in a program under this part,
                        provided the institution posts surety based on its annual loan
                        volume and cohort default rate to protect the Secretary
                        against loss from defaults and discharges of loans pursuant to
                        section 437(c) of this title.


                    When a school appeals the Department’s notice to rescind its FFELP
 Why Current Law
                    eligibility based on high default rates, the school is allowed to
Should Be Changed
                    continue to participate in FFELP until the appeal is decided. In our
                    opinion, the loans approved for students attending the school during
                    the appeal process would likely default at the same rate as loans
                    approved prior to the Department’s notice. This will likely result in
                    additional default claims for loans after the school has already been
                    identified as having an excessively high default rate. In addition, if a
                    school loses its appeal and is removed from the FFELP, there is a
                    high probability that the school will close. This may result in
                    substantial costs to the Department since all students in attendance
                    at the school within 90 days of the date of closure will have their
                    loans discharged (unless teach-out arrangements are made).

                    Department officials informed us that, as of March 5, 1997, there
                    were 141 schools that had appeals decided in favor of the
                    Department (based on the 1993 default rates, which were made
                    available February 15, 1996). We were only able to find loan
                    amount data for 104 of the 141 schools; for the remaining 37
                    schools, there were no loans on the National Student Loan Data
                    System guaranteed after February 15, 1996. During the period that
                    the appeals were being decided, $61 million in loans were
                    guaranteed for students attending these 104 schools. Based on the
                    1993 default rates for these schools, a total of $22 million may be
                    expected to be paid in default claims for these loans. Congress could
                    mitigate this potential loss and protect the taxpayers by requiring
                    schools that appeal their cohort default rates to post a surety.


                           ‚    ‚     ‚       ‚   ‚



                                    Page 13
                                                                                        U.S. Department of Education
                                                                                        Office of Inspector General
                                                                                                          S15-60006



                                 In order to ensure that federal taxpayer money is financing only
Legislate Separate
                                 quality vocational training and that federal regulation of the SFA
Statutory Requirements
                                 loan and grant programs is properly targeted, Congress should adopt
for Vocational Trade
                                 separate statutory requirements, as appropriate, for non-public,
Schools
                                 vocational trade schools, and provide explicit authority for the
                                 Department to regulate such schools separately. These separate
                                 requirements should cover all institutions that are eligible for the
                                 SFA programs because they provide “programs of training to
                                 prepare students for gainful employment in a recognized
                                 occupation,” that is, “proprietary institutions of higher education”
                                 and “postsecondary vocational institutions” (HEA §481, 20 U.S.C.
                                 §1088), except to the extent such schools are public institutions like
                                 community colleges.

                                 In particular, Congress should include as statutory requirements for
                                 vocational trade schools quantitative performance standards for
                                 graduation and job placement that reasonably ensure that these
                                 schools are, in fact, preparing students for jobs in occupations for
                                 which they purport to train them.2


                                 In defining the institutions that may participate in the SFA programs,
     Current Law
                                 the HEA appropriately draws a distinction between the two broad
       Provides
                                 categories of schools:

                                 !    those institutions that provide a program of training to prepare
                                      students for gainful employment in a recognized occupation,
                                      i.e., “proprietary institutions of higher education” and
                                      “postsecondary vocational institutions” (HEA, §481, 20
                                      U.S.C. §1088), and

                                 !    those institutions that provide educational programs that lead to
                                      a bachelor’s degree or provide not less than a two-year program
                                      which is acceptable for full credit toward such a degree, i.e.,
                                      “institutions of higher education” (HEA, §120l(a), 20 U.S.C.
                                      §1145b).

                                 Despite this fundamental statutory distinction, for the most part, the
                                 HEA treats vocational trade schools in the first category above in



       2      See page 1 for the OIG proposal that addresses performance standards in greater detail.

                                                  Page 14
                                                                               U.S. Department of Education
                                                                               Office of Inspector General
                                                                                                 S15-60006



                       the same manner as academic, degree-granting institutions and
                       mandates the same standards and procedures for these distinctly
                       different types of educational and training institutions. Historically,
                       this may be attributable to the fact that many vocational trade
                       schools are proprietary schools, which were not originally eligible for
                       the SFA programs, and were added to the definition of eligible
                       institutions in 1972.3 With the exposure of abuses in the vocational
                       trade school sector starting in the late 1980's by OIG, GAO, some
                       state agencies, and certain congressional subcommittees, Congress
                       began to target some SFA program reform provisions to vocational
                       trade schools. For example, the law now requires proprietary
                       schools to certify that no more than 85 percent of their funding is
                       derived from HEA Title IV programs. Programs under 600 clock
                       hours in length must demonstrate that they have a 70 percent
                       graduation rate and a 70 percent job placement rate for graduates
                       (i.e., 49 percent of those enrolled get a job) in order to be eligible
                       for student loans (HEA, §481(e)(2), 20 U.S.C. §1088).

                       However, a number of provisions added in the 1992 amendments
                       aimed at fraud and abuse found primarily at vocational trade schools
                       apply across-the-board to all institutions that participate in the SFA
                       programs, e.g., requirement of accrediting agency performance
                       standards for student achievement (§496, 20 U.S.C. §1099b); 30-
                       day delayed disbursement of loan monies for first-time borrowers
                       (HEA §428G, 20 U.S.C. 1078-7); and pro rata refunds for students
                       who complete less than 60 percent of the period of enrollment for
                       which they have been charged (§484B, 20 U.S.C. §1091b).

                       The Department has recognized that the HEA places burdens on all
                       schools by adding administrative provisions that are aimed at
                       preventing abuses in the short-term vocational schools sector. In
                       1995, the Department identified 22 provisions of both statute and
                       regulations that were unnecessarily burdensome to academic
                       institutions, but it was unsuccessful in targeting reforms to the
                       problematic trade-school sector.




3   Congressional Research Service, History of Proprietary School Student Eligibility for Federal
    Student Aid Programs, October 25, 1989.

                                        Page 15
                                                                                          U.S. Department of Education
                                                                                          Office of Inspector General
                                                                                                            S15-60006




                                 The HEA should require that proprietary institutions of higher
Suggested Legislative
                                 education and postsecondary vocational institutions meet measurable
      Change
                                 performance standards for graduation and job placement, such as
                                 the 70/70 graduation and placement standards now in the law for
                                 very short-term programs. In addition, enforcement measures such
                                 as those cited above that burden academic institutions unnecessarily
                                 should be targeted to the sector where abuse has been documented:
                                 non-public, vocational trade schools. OIG is also recommending that
                                 an annual refund certification requirement be legislated for these
                                 schools.4 Finally, Congress should include in section 481 ( 20
                                 U.S.C. §1088) of the HEA or elsewhere explicit authority for the
                                 Department to regulate non-public proprietary institutions of higher
                                 education and postsecondary vocational institutions differently than
                                 other institutions of higher education.


                                 Non-public, vocational trade schools, whether proprietary or
 Why Current Law
                                 nonprofit, should be treated differently in certain respects in the
Should Be Changed
                                 HEA, because by definition they have a different mission (to provide
                                 job training) and function differently in many respects from academic
                                 institutions. Moreover, substantially all the serious fraud, waste and
                                 abuse uncovered by OIG and others in the SFA programs is
                                 attributable to vocational trade schools. The failure to make
                                 appropriate distinctions in the law between types of schools leads to
                                 fraud, waste and abuse that cannot be efficiently and effectively
                                 addressed through the administrative and regulatory process.5

                                 There is compelling evidence that non-public, vocational trade
                                 schools are different from others in the SFA programs and should be




      4       See page 36 for the OIG proposal that addresses refund certification in greater detail.

      5      We are not recommending, at this time, including public institutions that offer vocational
             programs, such as community colleges, for a number of reasons: (1) there are fewer federal funds
             at risk because such programs are state-subsidized and consequently generally cheaper than
             equivalent vocational programs offered by private training programs; (2) they are subject to state
             oversight to a greater degree than their private counterparts, which provides an additional
             assurance of quality; (3) to date, we have not generally documented abuse at public vocational
             institutions.

                                                   Page 16
                                                                                U.S. Department of Education
                                                                                Office of Inspector General
                                                                                                  S15-60006



                        treated differently.6 One such indicator is default rates for student
                        loans, which are much higher for such schools than others. Even
                        with the student loan default reduction provisions, which have
                        eliminated many extremely high-default schools from participating in
                        the SFA programs, default rates for vocational trade schools remain
                        much higher than for academic institutions. According to the most
                        recent available Department statistics, for fiscal year 1994,
                        proprietary schools offering programs of all lengths had much higher
                        default rates than public and private two- and four-year institutions,
                        as did private two-year institutions (many of which are
                        postsecondary vocational institutions) --

                             Public 4-year: 6.8 percent
                             Private 4-year: 6.3 percent
                             Public 2-year: 13.8 percent
                             Private 2-year: 13.5 percent
                             All Proprietary: 21 percent
                             Proprietary 2-4 years: 18.9 percent
                             Proprietary less than 2 years: 23 percent.7

                        According to the Department’s SFA program office, all of the 203
                        schools that lost eligibility for the loan programs because of high
                        default rates for the one-year period ending January 1997 were
                        proprietary schools. Departmental data reflect that 65 percent of the
                        schools placed on provisional certification were proprietary schools;
                        54 percent of those schools were cited for high default rates. Of the
                        schools in the SFA programs that closed between fiscal year 1986
                        and present, 89 percent were proprietary schools.

                        Since 1980, over 90 percent of OIG cases and OIG-generated
                        indictments involved proprietary business, technical and cosmetology
                        schools, their owners, and employees. Abuses identified by OIG at
                        these schools included receipt and retention of SFA monies for


6   The Department’s and other available data are reported in a manner that distinguishes between
    proprietary schools and others. OIG’s proposal does not distinguish between proprietary schools
    and non-profits. It is based upon the type of training offered (i.e., that which prepares students
    for gainful employment in a recognized occupation), and not the school’s business structure.
    These data are nevertheless supportive of OIG’s position, because a large part of the vocational
    trade school training financed through the SFA programs is offered by proprietary schools.

7   U.S. Department of Education, Report to the President on Student Loan Default Initiative,
    January 9, 1997.

                                         Page 17
                                                                        U.S. Department of Education
                                                                        Office of Inspector General
                                                                                          S15-60006



                      ineligible and no-show students; failure to pay loan and Pell Grant
                      refunds when students withdrew; course stretching which increased
                      the cost of programs beyond what is necessary to obtain
                      employment; enrollment of students who do not have a high-school
                      credential or the ability to benefit from the course; and falsification
                      of ability-to-benefit test scores, student attendance, and academic
                      progress. OIG work also revealed many instances of abusive
                      recruitment practices by these schools, including monetary
                      inducements and false guarantees of grants and job placement.

                      The GAO in June 1996 congressional testimony 8 echoed OIG
                      findings, testifying that fraud and abuse at some proprietary trade
                      schools has been central to its program concerns. GAO expressed
                      concern about high default rates at proprietary schools and
                      questioned whether proprietary trade schools that overwhelmingly
                      rely on federal student aid for revenue should be allowed to continue
                      participating in the SFA programs and to what extent proprietary
                      trade schools are training students for jobs that do not exist.

                      In a February 1997 report that was part of its High-Risk Series,
                      GAO emphasized the need for more attention to the vocational trade
                      school sector in order to improve the integrity of the SFA programs:

                           “The programs now serve more students from low-income
                           families and those attending proprietary schools than the more
                           traditional students the programs were intended to serve. . . .
                           The programs’current structure makes it difficult for the
                           Department to protect the taxpayers’financial interests.

                                                      ****

                           Also, FFELP was originally intended to finance a traditional
                           college education. The expansion of the program to include
                           other education and training schools, such as proprietary
                           (for-profit and trade) schools, has resulted in grants and
                           loans to students to attend schools that did not always
                           provide a high-quality education.




8   House Subcommittee on Human Resources and Intergovernmental Relations, Committee on
    Government Reform and Oversight.

                                     Page 18
                                                                           U.S. Department of Education
                                                                           Office of Inspector General
                                                                                             S15-60006



                            Abusive practices at some proprietary schools, along with
                            plentiful loans, have contributed to loan defaults and
                            program costs. . . . Some proprietary school operators have
                            enriched themselves at the expense of economically
                            disadvantaged students, while providing little or no
                            education in return. Faced with large debts and no new
                            marketable skills, these students have often defaulted on
                            their loans. . . . With increased risk to the government from
                            increasing participation in the FDLP, attention to educational
                            quality is much more important now and in the future.”9

                      The inefficiency and waste that result from failure to distinguish in
                      the law between vocational trade schools and other institutions for
                      purposes of the SFA programs is illustrated by the controversy over
                      measurement of course length for purposes of institutional eligibility
                      and calculation of grant and loan award amounts. OIG audits
                      demonstrated that many vocational trade school programs became
                      eligible for the grant and/or loan programs and/or increased their
                      SFA program proceeds by converting their course length
                      measurement from clock-hours to credit-hours without substantially
                      changing their course content. These vocational trade schools, many
                      of which originally offered programs six months or less in length,
                      inappropriately adopted a longer credit-hour course length measure
                      from two- and four-year academic institutions that is based on the
                      premise that significant out-of-class work is required to complete the
                      academic program.

                      It took four years for the Department to promulgate in final form a
                      controversial set of conversion regulations to stop this costly abuse.
                      Separate statutory and regulatory requirements will better enable the
                      Department to maintain better controls over fraud, waste, and abuse
                      in the SFA programs without an undue burden on academic
                      institutions.


                               ‚    ‚     ‚       ‚   ‚




9   GAO/HR 97-11, High-Risk Series, Student Financial Aid, pp. 22-25 (February 1997).

                                        Page 19
                                                                          U.S. Department of Education
                                                                          Office of Inspector General
                                                                                            S15-60006



                           Twenty-five years ago, the Pell Grant program totaled $47 million,
Eliminate the 25-Year-     and since the payment system was paper driven, advance funding
Old Requirement For Pell   was necessary to process payments to institutions within a
Advance Funding            reasonable time. Today, with a $6 billion dollar Pell Grant program,
                           payments can be processed and electronically transferred to school
                           accounts within 48 hours which eliminates the need for advance
                           funding. Further, trying to keep up with approximately 900,000
                           manual adjustments totaling about $840 million (about 18 percent of
                           total program cost) not only results in inaccurate Departmental
                           records and increased administrative burden on schools, but also
                           opens the Pell Grant program up to fraud, waste, and abuse by
                           unscrupulous school owners.


                           The HEA under section 401 (a)(1) enacted in 1972, provides that:
     Current Law
       Provides
                               “ ... Not less than 85 percent of such sums shall be advanced
                               to eligible institutions prior to the start of each payment
                               period and shall be based upon an amount requested by the
                               institution as needed to pay eligible students...”


                           Rescind the 1972 provision of the HEA, section 401 (a)(1), requiring
  Suggested Legislative
                           advance funding of Pell. Amend section 401 of the HEA to state:
        Change
                                (1) the first disbursement of a student’s Pell Grant is to be
                               made available to a school only after a student starts classes
                               in an educational program and (2) the second disbursement
                               is to be made available only after satisfactory completion of
                               the first half of the academic year’s educational program
                               and enrollment in the second half of the academic year
                               program.


                           The technological advances made over the last 25 years in money
    Why Current Law
                           and banking make reliance on an advance funding system obsolete.
   Should Be Changed
                           Currently, payments to schools can be processed in 48 to 72 hours.
                           Such a delay should not have an impact on the operation of any
                           school. Without elimination of the current advance funding
                           requirement, adjustments and risk of fraud, waste, and abuse, will
                           continue to plague the Pell Grant payment system.


                                         Page 20
                                               U.S. Department of Education
                                               Office of Inspector General
                                                                 S15-60006



Regarding adjustments, we visited a 4-year public university that
processed the most adjustments for the 1994/95 Pell award year.
That university processed 36,100 adjustments for $36 million. While
adjustments were processed for various reasons, 6,500 adjustments
for $8.5 million, were for students that never attended class. The
other adjustments were to correct potential overpayments or for
students that did not enroll in the second payment period.
Conversely, we visited three schools that submitted few adjustments.
These schools did not process any payment records until students
started classes. As a result, these schools avoided the need for
numerous adjustments and did not have any reconciliation
difficulties.

Since the student’s Pell award is for the entire academic year, the
Department must be able to track and deobligate funds for students
that never attend school and students that drop out prior to the
second payment period. For 1994/1995, over 900,000 adjustments
were processed and still about 2,000 schools were unable to
reconcile their Pell Grant authorizations with actual student
disbursements.

Advance funding creates thousands of unnecessary adjustments
which has an impact on the Department’s ability to control the Pell
Grant program. Additionally, advance funding makes the program
more susceptible to fraud, waste and abuse. For example, a
Department program review disclosed that a school in Georgia drew
down and retained over $139,000 in Pell Grant funds for students
that never enrolled. A compliance audit disclosed that the school
drew down an additional $464,100 for students that never attended
the second half of the program. The school’s Financial Aid
Administrator (FAA) admitted to inappropriately drawing down Pell
Grant funds, and the school agreed to process the required
adjustments and return the Pell funds to the Department. However,
this did not occur. Instead, the school closed and did not return the
funds.

OIG investigations have identified many institutions that have abused
the Pell Grant program’s advanced funding system. These
institutions typically target students who have the most financial
need and the least motivation to complete the programs. Such
schools draw down the maximum amount of advance funds allowed
for students who never attend or drop out early. In addition, when

              Page 21
                                                                    U.S. Department of Education
                                                                    Office of Inspector General
                                                                                      S15-60006



                  the students cancel enrollment or fail to appear, these institutions fail
                  to refund the excess Pell Grant funds to the Department.

                  Requiring that a student actually starts class before Pell funds can be
                  drawn down would lessen this type of fraud. For example, one such
                  school carried phantom students on its books, took the maximum
                  first and second Pell payments for the phantom students and even
                  showed the phantom students as having graduated. Over the six
                  years it operated in this manner, the school received over $57 million
                  in Pell Grant funds. In a similar case, the owner of a cosmetology
                  school recruited students by traveling around neighboring towns in a
                  van equipped with all the necessary forms to enroll students and
                  apply for financial aid. Most of the students never attended class.
                  The owner never paid refunds and fraudulently obtained, on behalf
                  of these no-show students, about $1.2 million in student financial aid
                  funds, the majority of which were Pell Grant program funds.

                  Eliminating the Pell advance funding requirement will give the
                  Department more control over the Pell Grant program, help relieve
                  schools’reconciliation problems, and help reduce fraud, waste, and
                  abuse.


References   1.        OIG audit report Inconsistent Institutional Pell Grant
                       Reporting Results in Significant Expenditure Discrepancies,
                       ACN 11-30001, dated September 1994.


                          ‚   ‚     ‚       ‚   ‚




                                  Page 22
                                                                             U.S. Department of Education
                                                                             Office of Inspector General
                                                                                               S15-60006



Student Eligibility

                           Congress should authorize the Department to verify reported income
 Require Verification of   data for student financial aid applicants and, as appropriate, their
 Applicants’ Income Data   parents with the Internal Revenue Service (IRS) income data.
 with IRS                  Verification could prevent at least $100 million annually in Pell
                           Grant overpayments to students who fail to report accurate income
                           data on their financial aid applications. It would also relieve the
                           burden on schools which have to verify income for selected students,
                           and on students and parents who must provide the schools support
                           for the income they reported on financial aid applications. It would
                           also enhance the Department’s capabilities of detecting fraud.


                           Under sections 401(d) and 483 of the HEA, students and parents
      Current Law
                           provide financial and other data on a common financial aid
        Provides
                           application. This information is used in the needs analysis system
                           established by Part F of the HEA to determine each applicant’s
                           eligibility and need for student financial aid. Under needs analysis, a
                           family’s prior year income and other data reported on the application
                           are assessed to determine the expected family contribution. The
                           HEA also requires that institutions verify eligibility information for at
                           least 30 percent of their federal student aid applicants. To verify
                           income, the institutions require applicants to provide copies of their,
                           and as appropriate, their parents’federal tax returns.



   Suggested Legislative   The following provision should be added to section 484 of the HEA:
         Change
                               (q) The Secretary of Education is authorized to confirm
                               with the IRS the adjusted gross income, filing status,
                               exemptions and mailing addresses reported by SFA
                               applicants on their federal income tax returns for the
                               purpose of verifying the income students and parents report
                               on student financial aid applications.

                           Further, to enable the Department to obtain from the IRS complete
                           income data for applicants who are dependent, the following
                           provision should be added to section 401(d) of the HEA:




                                          Page 23
                                                                    U.S. Department of Education
                                                                    Office of Inspector General
                                                                                      S15-60006



                        ...(3) Each dependent student desiring a basic grant shall
                        provide the social security number of the student’s
                        parent(s) on the application form.


                    Verification of income data from the IRS would help prevent
 Why Current Law
                    ineligible students with high personal and family incomes from
Should Be Changed
                    receiving financial aid. It would also result in more accurate
                    financial aid awards to students. In addition, verification with IRS
                    would make the process less burdensome for students, parents, and
                    schools than under the current verification process.

                    We performed a match with IRS for 2.3 million of the 3.7 million
                    total Pell Grant recipients for award year 1995-96 and found that
                    about 4.4 percent of the recipients did not report or under reported
                    their income. As a result, for that year alone, 102,000 students
                    received over $100 million of Pell Grants to which they were not
                    entitled. These students may have improperly obtained subsidized
                    loans as well.

                    Over 300 of the Pell Grant recipients we reviewed had under
                    reported their income to the Department by more than $100,000.
                    One student reported no income on the student aid application but
                    IRS records indicated that the individual reported over $1.3 million
                    in adjusted gross income on a federal income tax return.

                    Although the Department requires schools to verify income reported
                    by selected students through a review of tax returns and other
                    documents provided, the process cannot detect students who
                    intentionally under report their income and/or provide false
                    documentation. Schools verified the income of over 22,000 of the
                    102,000 students and concluded that the income reported on the
                    application was accurate or within specified tolerances in virtually
                    every case.

                    OIG investigations have identified many instances where a match of
                    the reported family income with that reported to the IRS before
                    approval of the student financial aid application would have stopped
                    fraudulent activities. Random verification of financial status by
                    schools is easily circumvented. For example, in one case, two
                    individuals set up a business for the sole purpose of falsifying
                    students’and parents’financial information on student aid

                                  Page 24
                                                              U.S. Department of Education
                                                              Office of Inspector General
                                                                                S15-60006



            applications to make it appear that the students’families had
            incomes low enough to qualify for student financial aid. When
            necessary, they even created false tax returns that were filed with the
            application at the school. The students paid about $350 for the
            services. After 19 months of business, about 790 students at over 72
            different universities had used the service. A sampling of 101 of
            those student files revealed that all 101 had family incomes that were
            too high to qualify for financial aid. At least $1.4 million in student
            financial aid was fraudulently obtained.

            Running a similar scheme, the Assistant Director of Academic
            Support in the Athletic Department of the University of Miami
            (UM), along with 91 UM students, defrauded the Department of
            over $220,000 in Pell Grant program funds. Over a period of two
            years, he assisted student athletes, including full-scholarship football,
            basketball and baseball players, in submitting Pell Grant applications
            containing falsified information regarding the students’and their
            families’financial condition. If verification of the financial
            information was requested, the Assistant Director and/or the student,
            using a blank United States tax form for the relevant year, would
            forge the tax form to match the falsified parental information, forge
            the parent’s signature and submit the information to UM for
            processing. When the student received the Pell Grant check, he
            would pay the Assistant Director a fee ranging from $80 to $100 and
            use the rest of the $1,500 for food, social events, trips, electronic
            equipment and other non school related entertainment.

            In a case involving PLUS loan fraud, the purported student filed
            fraudulent applications for PLUS loans using the name and social
            security number of his deceased father. He eventually received over
            $70,000 in PLUS loan checks.


Reference   1.   OIG audit report Accuracy of Student Aid Awards Can Be
                 Improved by Obtaining Income Data from the Internal Revenue
                 Service, ACN 11-50001, dated January 1997.



                    ‚   ‚     ‚       ‚   ‚



                            Page 25
                                                                             U.S. Department of Education
                                                                             Office of Inspector General
                                                                                               S15-60006



                             The HEA should be amended to more specifically define the “special
    Limit Professional       circumstances” necessary for the exercise of professional judgment,
    Judgment by Financial    in order to ensure more consistency from school to school and avoid
    Aid Administrators       abuse that now results in Pell Grants going to students from high-
                             income families.
.

                             Part F of the HEA establishes the needs analysis system that must be
        Current Law
                             used to determine eligibility and need for student financial aid.
          Provides
                             Section 478 of Part F restricts the Department from regulating needs
                             analysis, which includes professional judgment.

                             The statutory needs analysis system recognizes that part of a family’s
                             resources must be devoted to taxes, basic living costs, and other
                             unavoidable expenses and provides allowances for such expenses.
                             Section 479A of Part F allows Financial Aid Administrators (FAA)
                             to use discretion or professional judgment to change these
                             allowances where students can demonstrate special circumstances.
                             The HEA defines the term as follows:

                                 “Special circumstances shall be conditions that differentiate
                                 an individual student from a class of students rather than
                                 conditions that exist across a class of students.”

                             FAAs can use professional judgment to increase or decrease income
                             and other data reported by the student, change the student’s status
                             from dependent to independent, or adjust the student’s cost of
                             attendance. The HEA requires these actions to be on a case-by-case
                             basis and be documented. However, the HEA does not allow the
                             Department to regulate the use of professional judgment.


                             Amend section 479A of the HEA to clearly prohibit FAAs from
     Suggested Legislative
                             using professional judgment to adjust data elements in the Expected
           Change
                             Family Contribution (EFC) calculation for redundant or nonessential
                             expenses claimed by students and parents. Also, amend section 478
                             of the Act to give the Department authority to regulate FAAs’use of
                             professional judgment.




                                           Page 26
                                                                    U.S. Department of Education
                                                                    Office of Inspector General
                                                                                      S15-60006



                    Specifically, the following language should be added to section
                    479A:

                        Any adjustments for additional expenses allowed because of
                        special circumstances should be limited to instances where
                        the student demonstrates the expenses were essential
                        expenses of the student or parent that were incurred out of
                        necessity. Such expenses shall not include any expenses
                        that have already been provided under the standard
                        allowances established under this part or any expenses that
                        result in the preferential treatment of a whole class of
                        students.

                    Section 478(a) of the HEA should also be amended to give the
                    Secretary the authority to regulate professional judgment by adding
                    the following:

                        ...(C) in regard to section 479A of this part concerning
                        discretion of student financial aid administrators.


                    The lack of specific provisions in the HEA to define clearly the
 Why Current Law
                    circumstances under which professional judgment can be used and
Should Be Changed
                    the prohibition against the Department regulating its use have
                    contributed to abuse in the use of professional judgment. In
                    addition, inequities exist in students’eligibility for financial aid
                    among schools resulting in students from families with income as
                    high as $100,000 obtaining Pell Grants.

                    Nationally, professional judgment is used for about 4.4 percent of
                    Pell recipients and accounts for an estimated $155 million in
                    additional Pell awards annually. We visited 19 schools, including
                    five that used professional judgment frequently, and found that
                    professional judgment actions were unreasonable or inadequately
                    documented for about 54 percent of the Pell recipients at the 19
                    schools, resulting in over 800 students receiving an estimated
                    $775,000 of Pell Grants that they would not have otherwise
                    received. The unreasonable use of professional judgment occurred
                    because FAAs: a) deducted from family incomes expenses that were
                    nonessential or that were incurred by whole classes of students, b)
                    made allowances for living and other expenses even though those


                                  Page 27
                                               U.S. Department of Education
                                               Office of Inspector General
                                                                 S15-60006



allowances had already been considered in the needs analysis system,
and c) did not always adequately document their actions.

One FAA at a four-year institution summed up the current state of
affairs when he stated that anyone could get federal financial aid
through the use of professional judgment and that the provisions in
the HEA prevented anyone from questioning those professional
judgment decisions. This university used professional judgment for
about half of its Pell recipients, making some students from families
with annual incomes in excess of $100,000 eligible for Pell Grants.
The FAA deducted from family incomes unusually high living
expenses without considering whether the expenses were incurred by
the families out of necessity or choice. For example, the deductions
included expenses for vacations, investments, lawn care, and other
nonessential items.


       ‚   ‚     ‚       ‚   ‚




               Page 28
                                                                         U.S. Department of Education
                                                                         Office of Inspector General
                                                                                           S15-60006



Loan Programs

                          To save millions of dollars and enhance the Department’s ability to
Require Annual            monitor the FFELP, the HEA should be amended to require periodic
Reconciliation of NSLDS   reconciliation of data in the National Student Loan Data System
Data                      (NSLDS) with data provided by lenders and guaranty agencies.


                          Section 428(c)(2)(B) gives the Secretary general authority to include
     Current Law
                          provisions in guaranty agency reinsurance agreements for making
       Provides
                          reports, keeping records, and allowing access to verify records for
                          information the Secretary may reasonably require to carry out the
                          program.

                          Section 432(c)(1) and (2) give the Secretary authority to designate
                          the categories of data to be collected.



  Suggested Legislative   Amend HEA to add to section 485B:
        Change
                               (h) INTEGRITY OF DATA.

                                 The Secretary shall establish procedures to ensure the
                                 completeness and accuracy of the data in the NSLDS.
                                 At the minimum, these procedures will require at least
                                 annual reconciliations of data maintained by NSLDS
                                 with guaranty agencies’ data and with lenders’ data.


                          While the current law provides the Secretary general authority
    Why Current Law
                          related to guaranty agency reporting and record verification, the
   Should Be Changed
                          Department has not taken sufficient action to ensure that NSLDS is
                          complete and accurate. Recent audit work and a study prepared for
                          the Department indicate that there are errors in NSLDS data and
                          mismatches between NSLDS data and the source data maintained by
                          guaranty agencies and lenders.

                          The draft report on the NSLDS Verification Study prepared for the
                          Department by Westat, Inc., reported significant data mismatches
                          between data sampled from the NSLDS and confirmed with
                          guaranty agencies and lenders. Past audit work reported that

                                        Page 29
                                                U.S. Department of Education
                                                Office of Inspector General
                                                                  S15-60006



records at a guaranty agency significantly overstated loans in
repayment. In 1993, we reported that the California Student Aid
Commission overstated loans in repayment as of September 30, 1991
by $1.5 billion, resulting in $16.4 million in overpaid reinsurance
claims. In addition, Price Waterhouse, LLP (PW) disclaimed an
opinion on the Department’s 1995 financial statements primarily
because data provided by guaranty agencies which was used to
estimate the FFELP aggregate liability for loan guarantees of $12.9
billion, was unreliable.

NSLDS data integrity is important because the NSLDS is the
Department’s only source for loan level FFELP data. The
Department plans to use the loan level data in the NSLDS to assess
the reasonableness of the summary data submitted by guaranty
agencies and lenders. The Department uses NSLDS for new aid
application screening, cohort default rate computations, and Student
Status Confirmation Report processing. In addition, the Department
also intends to use the NSLDS as a source of data to manage the
FFELP.

Guaranty agencies are the Department’s primary source for loan
amount and loan status information in the NSLDS. However, the
agencies obtain much of the data from lenders. Westat found
significant differences in data reported by guaranty agencies and
lenders. Both the processes guarantors use to gather data from
lenders and the processes guaranty agencies use to report data to
NSLDS appear to be causing the inconsistencies.

The HEA should be amended to require reconciliations of NSLDS
data to guaranty agency records and reconciliations of guaranty
agency data to lender records at least annually. These reconciliations
are a vital control necessary to ensure the integrity of FFELP data.
Prior OIG audit work, the Westat study, and the PW financial
statement audit provide sufficient evidence to conclude there are
inaccuracies in NSLDS’and guaranty agencies’data, but they do not
identify the cause of the errors.

To accomplish the reconciliations, the Department could require the
guaranty agencies’auditors to reconcile a statistically valid sample of
guaranty agency data with lender records and the NSLDS as part of
the guaranty agency audit requirement. Agencies which exceed
acceptable error rates should be required to reconcile all loans with

              Page 30
                                                            U.S. Department of Education
                                                            Office of Inspector General
                                                                              S15-60006



             significant lenders and the NSLDS. Using a sample to assess the
             error rate will provide the agencies and lenders an incentive to
             ensure data is reported accurately. The sample results will also
             enable the Department to assess the reliability of the NSLDS data.


References   1.   Westat, Inc., draft report National Student Loan Data System
                  (NSLDS) Verification Study, dated November 1996.

             2.   OIG SFA Action Memorandum No. 96-05 National Student
                  Loan Data System (NSLDS).

             3.   Final reports of the independent accountants on the
                  Department’s annual financial statements for the year ended
                  September 30, 1995, ACN 17-40303, dated August 16, 1996.

             4.   OIG audit report Report on the Transitional Guaranty
                  Agency’s Role in Guaranty Agency Transition Strategy, ACN
                  05-40007, dated June 1995.

             5.   OIG audit report The Department Should Continue Its Efforts
                  to Improve the Accuracy of Its Student Loan Database, ACN
                  09-38058, dated June 1996.

             6.   OIG audit report The Commission’s Loans in Repayment Were
                  Overstated by $1.5 Billion, ACN 09-10005, dated September
                  1993.


                    ‚   ‚     ‚       ‚   ‚




                            Page 31
                                                                           U.S. Department of Education
                                                                           Office of Inspector General
                                                                                             S15-60006



                           Changing the definition of loans in repayment would enhance the
Change the Definition of   Department’s ability to monitor and manage the FFELP. It may also
Loans in Repayment         have a significant impact on the amount of the Department’s
                           reinsurance payments to the guaranty agencies, which totaled $2.4
                           billion in fiscal year 1995.


                           In section 428(c)(1)(C) of the HEA, loans in repayment is defined as
     Current Law
       Provides
                               “the original principal amount of loans made by a lender
                               which are insured by the guaranty agency reduced by- (i)
                               the amount the insurer has been required to pay to
                               discharge its insurance obligations under this part; (ii) the
                               original principal amount of loans insured by it which have
                               been fully repaid; and (iii) the original principal amount
                               insured on those loans for which payment of the first
                               installment of principal has not become due pursuant to
                               subsection (b)(1)(E) of this section or such first installment
                               need not be paid pursuant to subsection (b)(1)(M).”


                           The definition of loans in repayment should be clarified and
  Suggested Legislative
                           simplified to reflect the original principal amount of loans reduced by
        Change
                           the amount of loans canceled, for which guarantees are valid and
                           payments are due. The calculation, therefore, would be based on the
                           actual loans in repayment as shown on the guaranty agency database.


                           The loans in repayment amount is important because it is used to
    Why Current Law
                           monitor and manage the FFELP and to establish a “trigger figure”
   Should Be Changed
                           which determines the percent of reinsurance the Secretary will pay
                           to the guaranty agency for default claims. The definition in the
                           current law is overly complex, relies on historical data accumulated
                           since the guaranty agency’s initial participation in the FFELP, and
                           uses an “exclusion style” definition which produces an unreliable
                           amount.

                           The effect of the current formula is to encourage guaranty agencies
                           to maintain a large loans in repayment figure in order to be paid 98
                           percent of the default claim, the maximum reinsurance rate. A
                           smaller, accurate loans in repayment figure may reduce a guaranty
                           agency’s reinsurance rate. For example, if the total of default claims

                                         Page 32
                                                             U.S. Department of Education
                                                              Office of Inspector General
                                                                               S15-60006



             paid by the Secretary in the current year reaches 5 percent of the
             amount of loans in repayment at the end of the preceding fiscal year,
             reinsurance to the guaranty agency will be paid at 88 percent rather
             than at 98 percent. The amount paid for reinsurance is further
             reduced to 78 percent as the amount of total default claims paid
             increases to 9 percent of total loans in repayment. This clearly
             illustrates the importance of the accuracy of the loans in repayment
             amount.

             When the formula is applied to inaccurate data, the results may be
             costly to the taxpayer. For example, our 1993 audit of the California
             guaranty agency disclosed that the loans in repayment figure used to
             determine payments on reinsurance claims was overstated by $1.5
             billion. As a result, the Department overpaid the agency about $16.4
             million on its reinsurance claims.

             Note: To clarify that the federal government is the sole, final insurer
             of guaranteed student loans, the President in his budget is proposing
             to pay 100 percent of all default claims through direct federal
             payments. If this proposal is accepted, the issue of loans in
             repayment could be resolved.


References   1.   OIG Management Improvement Report 92-13, ED Needs to
                  Change the Legislative Definition of Loans in Repayment,
                  dated September 4, 1992.

             2.   OIG audit report The Commission’s Loans in Repayment Were
                  Overstated by $1.5 Billion, ACN 09-10005, dated September
                  1993.


                    ‚    ‚     ‚       ‚   ‚




                             Page 33
                                                                           U.S. Department of Education
                                                                           Office of Inspector General
                                                                                             S15-60006



                          Guaranty agencies participating in the FFELP should account for
Standardize Accounting    and report program reserve funds in accordance with the same
and Reporting for         accounting principles and standards used by the Department,
Guaranty Agency           including use of the “accrual basis of accounting.” Such a change is
Reserve Funds             needed to ensure that all the Department’s assets are accounted for
                          and reported in a consistent manner and in accordance with federal
                          accounting standards. Since guaranty agencies are either nonprofit
                          entities or state agencies, they are subject to different accounting
                          standards, thus making the comparison of one guarantee agency’s
                          financial information to another difficult.


                          The current HEA does not have any language mandating accounting
     Current Law
                          standards for guaranty agencies. The HEA, in section 422 (g)(1),
       Provides
                          clearly indicates that the reserve funds of the guaranty agencies is the
                          property of the United States


                          We propose that the following language be added to section 422
  Suggested Legislative
                          (g)(1) of the HEA:
        Change
                              Guaranty agencies shall use a separate self balancing set of
                              accounts to account for and report FFELP activities in
                              accordance with federal accounting standards. These
                              records should clearly identify federal reserve funds
                              available for program expenses, assets purchased with
                              program funds and outstanding program liabilities to
                              determine and report the Department’s net equity in
                              guaranty agency reserve funds.


                          As pointed out by Price Waterhouse, the independent auditor that
   Why Current Law
                          performed the fiscal year 1995 Department-wide financial statement
  Should Be Changed
                          audit, the Department is responsible for establishing sufficient
                          controls to properly monitor guaranty agency operations and
                          account for transactions executed and assets held on its behalf.
                          Under the FFELP, guaranty agencies are crucial intermediaries in
                          delivering guaranteed loans to students whose financial and credit
                          management activities closely interact with those of the Department.
                          More specifically, from a financial point of view, guaranty agencies
                          act as transfer agents for the Department to pay for the expenses of
                          the FFELP.

                                        Page 34
                                                             U.S. Department of Education
                                                             Office of Inspector General
                                                                               S15-60006



             By law, the reserve funds held by guaranty agencies to pay FFELP
             expenses are the property of the federal government. Therefore,
             guaranty agency reserve funds represent an asset to the Department.
             The Department is responsible for accounting for and reporting this
             asset to the taxpayers in its financial statements in accordance with
             the applicable principles and standards effective at the time of their
             preparation.

             Currently, guaranty agencies only provide the Department with data
             about the actual receipt and delivery of program funds during a
             period of time on the “cash basis of accounting.” This method of
             accounting does not report the funds and assets available for future
             program expenses and the liabilities outstanding that must be
             satisfied with program resources.

             To properly account for and report guaranty agency reserves, the
             Department must have specific information on:

             (i) the funds available at guaranty agencies to pay program
                   expenses;
             (ii) the assets held by guaranty agencies purchased with program
                   funds; and
             (iii) the program liabilities outstanding that must be reimbursed with
                   program funding.

             This information can only be obtained using the “accrual basis of
             accounting” because this method provides information that matches
             revenues with the related expenses to reflect more accurately an
             entity’s performance during a period of time. Without knowing this
             information, the Department cannot properly control and accurately
             report this asset in its financial statements.


References   1.   Final reports of the independent accountants on the
                  Department’s annual financial statements for the year ended
                  September 30, 1995, ACN 17-40303, August 16, 1996.


                    ‚    ‚     ‚       ‚   ‚




                             Page 35
                                                                                          U.S. Department of Education
                                                                                          Office of Inspector General
                                                                                                            S15-60006



                                  Schools and/or school owners of vocational trade schools10 should
Require Certification of          be required to report and certify their refund liabilities on at least an
Refund Liabilities by             annual basis so that the Department can identify schools that are
Vocational Trade Schools          delinquent and the extent of their refund liabilities.11



                                  Section 484B of the HEA, 20 U.S.C. §1091b, deals with institutional
     Current Law
                                  refunds by specifying that schools must have a “fair and equitable
       Provides
                                  refund policy” and defining that term. The law contains no
                                  requirement for an accounting by schools of their refund liabilities.


                                  Language should be added to section 484B of the HEA to require an
  Suggested Legislative
                                  annual certification by school owners or other controlling persons of
        Change
                                  vocational trade schools concerning their institution’s SFA program
                                  refund liabilities.


                                   It has been the experience of OIG and it is acknowledged by the
    Why Current Law
                                   Department that failure on the part of some vocational trade schools
   Should Be Changed
                                   to make required refunds of SFA program funds (both loans and
                                   grants) when students fail to enroll or withdraw is a significant abuse
                                   in the SFA programs. This abuse is very hard to fix at the back-end,
                                   because it is difficult to recoup money from school owners for their
                                   failure to pay refunds and even more difficult to identify and obtain
                                   redress for victimized students. For example, in one California case,
                                   a federal jury recently found a former trade school owner guilty of a
                                   number of crimes in connection with his failure to pay at least $4.3
                                   million in refunds, and additional evidence concerning another
                                   school location reflected a failure to make another $2 million in
                                   refunds. OIG also found that the school owner had no
                                   unencumbered assets to attach or seize, and students, on whose
                                   behalf loan refunds were not made, remained liable for those loans



        10     This term includes “proprietary institutions of higher education” and “postsecondary vocational
               institutions” within the meaning of section 481 of the HEA.

        11     As an additional safeguard for ensuring program integrity, Congress should also mandate that
               the Student Status Confirmation Reports required for the FFELP and for the FDLP for all schools
               include a line item for refunds due and paid. If schools have sound recordkeeping and
               accounting systems and make refunds appropriately, this should not be burdensome.

                                                   Page 36
                                                 U.S. Department of Education
                                                 Office of Inspector General
                                                                   S15-60006



plus interest. (Other examples of OIG cases involving failure to pay
refunds are described in our referenced congressional testimony.)

Administrative back-end fixes have also proved ineffective. If a
school is terminated for failure to pay refunds, it has little or no
incentive to pay past liabilities. The Department is limited in its
ability to collect from corporate owners. The OIG has also seen a
number of instances where schools with refund liabilities were
allowed to remain in the SFA programs based on a promise to repay
over a long period of time and without interest. This almost
invariably resulted in eventual closure of the school without the
refunds being paid and additional students being victimized.

The Department does a poor job of enforcing the refund regulations
against schools. A principal reason, in our view, is that it does not
have a mechanism for determining systematically the amount of
refunds owed by schools. As a result, the Department does not take
administrative action in a timely manner when schools are behind in
making refunds. Until such time as a program review or the annual
audit is completed at a school or the matter comes to the
Department’s attention by way of complaints or through some other
extraordinary circumstance, the Department does not take action to
ensure that schools are making the refunds they owe in a timely
manner. In many cases, by the time the Department becomes aware
of a refund arrearage, the amount is so substantial that the school
closes or is sold, and the refunds are never paid.

Having a clear and unambiguous certification of refund liabilities
would not only enhance the Department’s capacity to enforce
schools’refund obligations, but it would enhance OIG’s ability to
make criminal cases against parties that fail to pay refunds. If a
school owner or controlling person deliberately understates the
school’s refund liability, a clear false statement would be available as
a basis for criminal prosecution. We also believe that the obligation
to sign a certification on a regular basis that would subject school
owners to scrutiny by the Department and possible criminal liability
for misrepresentation would give some school owners, who might
otherwise let refunds become delinquent, the incentive to become
current in their refund payments.

OIG’s data from audits and investigations reflect that the problems
of unpaid refunds principally occur at vocational trade schools. In

               Page 37
                                                              U.S. Department of Education
                                                              Office of Inspector General
                                                                                S15-60006



             our view, these schools have much higher default rates for student
             loans than degree-granting institutions, which is an indicator of risk
             for unpaid refunds.


References   1.   OIG memorandum on Certification of Refund Liabilities, dated
                  January 22, 1997.

             2.   Testimony of the Inspector General before the Subcommittee
                  on Labor, Health and Human Services and Education,
                  Committee on Appropriations, United States Senate, dated May
                  13, 1994.


                    ‚    ‚     ‚       ‚   ‚




                             Page 38
                                                                            U.S. Department of Education
                                                                            Office of Inspector General
                                                                                              S15-60006



                           Student victims of refund fraud should be eligible for loan discharges
Require Discharge of       to the extent of the owed and unpaid refund. The Department would
Loans to the Extent of     have recourse against the party owing the refund (typically, a school
Unpaid Refunds for         or school owner). The Department should be required to report to
Student Victims            Congress annually the amount of such loan discharges.


                           In the HEA Amendments of 1992, Congress provided for loan
      Current Law
                           discharges for two classes of victimized students: (1) those students
        Provides
                           unable to complete their programs, because the school closed, and
                           (2) those students whose eligibility to borrow was falsely certified
                           (with respect to the student’s ability to benefit from the program).
                           Students whose schools did not make appropriate refunds to lenders
                           when the students did not actually enroll or withdrew are still legally
                           liable for those loans.


                           Section 437 of the HEA, 20 U.S.C. §1087, which contains the
   Suggested Legislative
                           current discharge language, should be amended to add the following
         Change
                           italicized language:

                               “(c) DISCHARGE. --

                                           (1) IN GENERAL. -- If a student borrower who
                               received, on or after January 1, 1986, a loan made, insured,
                               or guaranteed under this part is unable to complete the
                               program in which the borrower is enrolled due to the
                               closure of the institution or if such student’s eligibility to
                               borrow under this part was falsely certified by the eligible
                               institution or if the eligible institution failed to make a refund
                               of loan proceeds which it owed to such student’s lender, then
                               the Secretary shall discharge the borrower’s liability on the
                               loan (including interest and collection fees) by repaying the
                               amount owed on the loan and shall subsequently pursue
                               any claim available to such borrower against the institution
                               and its affiliates and principals or settle the loan obligation
                               pursuant to financial responsibility authority under
                               subpart 3 of part H. In the case of a discharge based upon a
                               failure to refund, the amount of the discharge shall not exceed
                               that portion of the loan which should have been refunded.



                                         Page 39
                                                                                       U.S. Department of Education
                                                                                        Office of Inspector General
                                                                                                         S15-60006



                                    The Secretary of Education shall report to [particular
                                    Committees of Congress] annually as to the dollar amount of
                                    loan discharges attributable to failures to make refunds.“

                               The failure by schools to pay refunds of loan proceeds when
 Why Current Law
                               students do not actually enroll or withdraw is generally recognized
Should Be Changed
                               to be a major problem in the SFA programs. The problem can reach
                               such proportions that it constitutes fraud which has been prosecuted
                               criminally in a number of OIG cases. The problem has been
                               particularly serious in the vocational trade school sector, since
                               recruitment practices and other factors characteristic of such schools
                               tend to increase the amount of such schools’refund obligations.

                               For example, in a California case, a federal jury found a former trade
                               school owner guilty of a number of crimes in connection with his
                               failure to pay at least $4.3 million in refunds and additional evidence
                               concerning another school location reflected a failure to make
                               another $2 million in refunds.12 Owners of a technical business
                               school in Illinois were found guilty of crimes in connection with their
                               failure to make at least $ 1.4 million in refunds. In both these cases,
                               the evidence showed that the owners used the money to finance
                               extravagant lifestyles. Another OIG investigation of a truck driving
                               school in Delaware which failed to make over $6 million in refunds
                               (among other fraud) and whose owners and officers altered and hid
                               records to obstruct OIG auditors resulted in several guilty pleas and
                               a civil settlement of about $13 million in cash and liquidated real
                               estate of the owners. In the case of a Texas truck driving school,
                               $2.6 million in refunds was not made, and an OIG investigation led
                               to guilty pleas and a criminal forfeiture of the owner’s assets. The
                               sale of those assets resulted in recovery by the government of only
                               $777,800.

                               Except in exceptional circumstances, students on whose behalf loan
                               refunds were not made, remain liable for those loans plus interest. In
                               just the cases cited above, thousands of students and persons who
                               never enrolled as students were affected by the failure of schools to
                               pay refunds. Not only are their credit ratings harmed, but they lose


    12     The dollar figures in this paragraph include both loan and Pell Grant refunds. Pell Grants do not
           have to be repaid by the student, and the failure to refund them would not require a discharge. In
           each example cited, a substantial portion of the refunds consist of loan refunds, and the aggregate
           figures are used to show the extent of the documented fraud.

                                                Page 40
                                                 U.S. Department of Education
                                                 Office of Inspector General
                                                                   S15-60006



their eligibility for additional SFA, including grants, and for other
federal benefits. In many cases, this is devastating for them, since
most of the students are from disadvantaged backgrounds and of
limited means. These students are just as victimized, if not more
victimized, than their fellow students whose schools close or whose
ability to benefit is falsely certified and who are eligible for loan
discharges. Under current law this class of student victims is not
treated equitably, since they must pay the full amount of their loans.

The Department has no mechanism for determining on a regular
basis the amount of refunds owed by a particular school. Until such
time as a review is conducted at a school or the matter comes to the
Department’s attention by way of complaints or through some other
circumstance, the Department does not take action to ensure that
schools are making the refunds they owe in a timely manner. In
many cases, by the time the Department becomes aware of a refund
arrearage, the amount is so substantial that the school closes and the
refunds are never paid. The proposed requirement to have the
Department report to Congress annually on the amount of discharges
attributable to failures to pay refunds will provide an incentive on the
part of the Department to better enforce the refund regulations.



       ‚    ‚     ‚       ‚   ‚




                Page 41
                                                                             U.S. Department of Education
                                                                             Office of Inspector General
                                                                                               S15-60006



                            Defaulted Title IV loans should not be consolidated. The process of
Prohibit Consolidation of   consolidating loans is expensive, there is a high likelihood of re-
Defaulted Loans             default, and the borrower, upon consolidation, is eligible for
                            additional loans. The Department as of June 10, 1996 paid $23
                            million to consolidate into the William D. Ford Federal Direct Loan
                            Program (FDLP) 29,431 defaulted loans previously held by the
                            Department’s Debt Collection Services (DCS). These
                            consolidations resulted in the Department collecting $8.53 less per
                            month per loan in the FDLP than what was collected by DCS.


                            The current HEA allows for consolidation of defaulted loans in both
     Current Law
                            the FFELP and FDLP.
       Provides
                            For FFELP the consolidation of defaulted loans is permitted in
                            section 428(C) of the HEA. Section 428C(a)(3)(A) includes in the
                            definition of an “eligible borrower” a borrower that is in default.
                            Further, section 428C(a)(4)(A) includes in the definition of “eligible
                            student loans” loans that are in default.

                            For FDLP the consolidation of defaulted loans is permitted in section
                            455(g) of the HEA. This section simply cites that eligibility is the
                            same as section 428C(a)(4).


                            We propose that the HEA be amended to prohibit the consolidation
  Suggested Legislative
                            of defaulted loans. In order to achieve this, the stricken sections of
        Change
                            the law as shown below need to be deleted.

                            HEA section 428C(a)(3)(A) states:

                                “For the purpose of this section, the term "eligible
                                borrower" means a borrower who, at the time of
                                application for a consolidation loan is in repayment status,
                                or in a grace period preceding repayment, or is a defaulted
                                borrower who has made arrangements to repay the
                                obligation on the defaulted loans satisfactory to the holders
                                of the defaulted loans.”




                                          Page 42
                                                                    U.S. Department of Education
                                                                    Office of Inspector General
                                                                                      S15-60006



                    HEA section 428C(a)(4) states

                         “For the purpose of paragraph (I), the term "eligible
                        student loans" means loans -

                            (A) made, insured, or guaranteed under this part,
                            including loans on which the borrower has defaulted
                            (but has made arrangements to repay the obligation on
                            the defaulted loans satisfactory to the Secretary or
                            guaranty agency, whichever insured the loans);”


                    Consolidating defaulted loans does not significantly benefit the
 Why Current Law
                    Department, the lenders, or the borrowers. In fact the consolidating
Should Be Changed
                    of defaulted loans is costly.

                    Department

                    In 1995 the Department began consolidating defaulted loans held by
                    the Department into new FDLP loans. In January 1996, the OIG’s
                    audit of this process concluded that it was not cost effective because:

                    <   The prospect of repayment of the new FDLP loans was low and
                        the likelihood of re-default was high given the poor payment
                        history of the defaulted borrowers.

                    <   There were high up-front costs, largely from collection agency
                        and servicer fees, that we believed would not be recouped.
                        Defaulted borrowers who consolidate into new FDLP loans and
                        repay their new loans under the income contingent repayment
                        (ICR) option may pay nothing or minimal payments too small to
                        repay their loans.

                    <   Revenues from involuntary collection methods such as tax
                        refund offsets and wage garnishment were lost because these
                        methods are only used for defaulted loans.

                    <   Defaulted borrowers who consolidated became eligible for
                        additional student loans and grants and pose a significant risk of
                        defaulting again.



                                  Page 43
                                                 U.S. Department of Education
                                                 Office of Inspector General
                                                                   S15-60006



In July of 1996 the Department did an analysis of 29,431 DCS
borrowers who consolidated into the FDLP between March 14,
1995 and June 10, 1996. The study corroborated our conclusion
that consolidation was not cost effective. The study revealed that
the Department paid on average $778 per loan to collect on average
$8.53 monthly per loan less after consolidation than it was collecting
previously.

Lenders

In April 1996 the Student Loan Marketing Association (Sallie Mae),
the largest holder of FFELP loans, informed guarantee agencies that
it would no longer accept defaulted loans for consolidation because
of changes in the industry, their past experience, and their ability to
obtain guarantees for defaulted loans. Further, Sallie Mae sent a
letter to the Department stating that the default rate of Smart Loan
accounts that contain previously defaulted loans is more than double
the default rate of Smart Loan accounts that do not contain
previously defaulted loans.

The lenders for each Consolidation loan pay the Department an
annual fee of 1.05 percent of the principle plus accrued interest.
Further, if a Consolidation loan defaults the lender gets paid only 98
percent of the loan value. Therefore, Consolidation loans with high
default rates are costly to the lenders.

Borrowers

For the borrowers, the consolidation of defaulted loans is expensive
in either program. The borrower pays a collection fee on the old
defaulted loans as though they paid them in full.

As indicated above, to consolidate defaulted loans into FDLP it costs
the Department an average of $778. However, the Department
charges the borrower on average $700 of this cost as a collection fee
on their defaulted loans. The borrower now has $700 of new debt to
repay in addition to their previous defaulted debt. If these are
marginal borrowers that did not have the income to pay their original
loans, the additional debt only worsens their situation.




              Page 44
                                                            U.S. Department of Education
                                                            Office of Inspector General
                                                                              S15-60006



             Defaulted borrowers in the Department’s Debt Collection Service
             are now able to repay their loans using ICR without the expense of
             consolidation.


References   1.   OIG audit report Cost Analysis of the Department’s Initiative
                  to Consolidate Debt Collection Service Loans Into The Direct
                  Loan Program, ACN 11-50002, January 1996.

             2.   Sallie Mae’s April 16, 1996-letter to the Department.


                    ‚    ‚     ‚       ‚   ‚




                             Page 45
                                                                           U.S. Department of Education
                                                                           Office of Inspector General
                                                                                             S15-60006



                           Determining ability to repay and requiring joint parent/student
Require the
                           liability are necessary to protect the PLUS loan program from abuse.
Determination of the
                           Since the HEA Amendments of 1992 eliminated the $4,000
Ability to Repay PLUS
                           academic year and $20,000 aggregate limit, PLUS loans made above
Loans and Require Joint
                           the former $4,000 limit have soared to $2.4 billion. Many parents
Parent/Student Liability
                           close to retirement may be burdened with payments that exceed their
                           income which could contribute to increases in defaults, and
                           discharges due to death, disability, or bankruptcy.


                           The PLUS loan is addressed under section 428B (b), which states
     Current Law
                           that individual loans cannot exceed the estimated cost of attendance
       Provides
                           minus other estimated financial assistance for the enrollment period.
                           While borrowers must pass a credit check, there is no requirement
                           to determine a borrower’s ability to repay his or her loan balance
                           and no requirement that the student cosign the parent’s promissory
                           note.


                           Section 428B (b) should be amended to read:
  Suggested Legislative
        Change
                               Standard banking procedures must be used to determine
                               the borrower’s ability to repay the loan. All promissory
                               notes for PLUS loans disbursed on or after July 1, 1998,
                               shall be signed by the parent and student. In the event of
                               the parent’s death, disability, bankruptcy or default,
                               responsibility for the loan balance shall be transferred to
                               the student.


                           In the two years since the PLUS loan limits were eliminated, the
    Why Current Law
                           average loan grew to about $8,000; there were 17,132 individual
   Should Be Changed
                           loans in excess of $15,000. About 1,200 of those loans were in
                           excess of $25,000.

                           We found that older parents are borrowing more money and will, in
                           many cases, be in retirement prior to paying off their PLUS loans.
                           For example, one parent took out four loans in 1993/94 for a total of
                           $90,000. He became 61 years old in February 1997. Another
                           parent, who borrowed $103,550 for five loans in 1993/94, was 55
                           years old in February 1997. For many parents, such large loan
                           balances may exceed their ability to pay. Further, expected life spans

                                         Page 46
                                                             U.S. Department of Education
                                                              Office of Inspector General
                                                                               S15-60006



             may be too short to liquidate loan balances in those instances where
             older parent borrowers are approved for 30 year repayment plans.
             Without amendments to the HEA, instances of death, disability,
             bankruptcy, or default, will require taxpayers to absorb these large
             loan balances. Having students, who benefitted from the educational
             loans, cosign the promissory notes, would provide an additional level
             of protection for the taxpayer.

             Using standard banking procedures to determine the parent’s ability
             to repay the loan also would help reduce the level of fraud and abuse
             in the PLUS loan program. OIG cases have led to indictments and
             convictions involving a number of PLUS fraud rings where the
             perpetrators, through the use of false information on PLUS loan
             applications, were able to fraudulently obtain anywhere from
             $70,000 to $1,000,000 in each case.

             Typically, the fraud rings use false names, false social security
             numbers, false dates of birth and other falsified personal information.
             One ring leader actually bribed a Social Security Administration
             employee to obtain good social security numbers. Another
             individual regularly used his deceased father’s name and social
             security number. In these cases, a credit worthiness check on the
             borrower would have revealed the falseness of the social security
             numbers, the fact that the names did not match the so-called good
             social security numbers and the fact that one borrower was
             deceased.


References   1.   OIG SFA Action Memorandum PLUS Loans to Some Parents
                  May Exceed $200,000! Will Those Parents Be Able to Repay,
                  dated September 28, 1995.

             2. Summary of PLUS loans over $4,000 disbursed during the
                period 7-1-93 - 6-30-95.


                    ‚    ‚     ‚       ‚   ‚




                             Page 47
                                                                           U.S. Department of Education
                                                                           Office of Inspector General
                                                                                             S15-60006



Law Enforcement

                           The statutory change in the length of the record retention
Require That SFA           requirement for Department administered programs will adversely
Records Be Retained for    impact the integrity of the SFA programs by making OIG
Five Years and That        investigation of program fraud much more difficult and, in some
Certain Original Records   cases, make successful prosecution impossible. In addition, a
Be Retained                regulation allowing all institutions to retain required records in
                           electronic formats exacerbates the problem.


                           The Improving America’s Schools Act of 1994, Pub. L. 103-382,
     Current Law
                           amended Section 437 (renumbered Section 443) of the General
       Provides
                           Education Provisions Act (GEPA) to reduce from five years to three
                           years the length of time that a recipient of funds under programs
                           administered by the Department must maintain records. This three-
                           year retention period is codified at 20 U.S.C. § 1232f(a), and it
                           became effective on October 20, 1994. On November 27, 1996, the
                           Department amended its regulations, 34 C.F.R. Part 668.24(d), to
                           implement the amendment of GEPA and permit all institutions to
                           maintain required records in microform, computer file, optical disk,
                           CD-ROM or other media formats. This regulatory amendment will
                           become effective on July 1, 1997.



  Suggested Legislative    Modify GEPA and/or the HEA to return to a five-year record
        Change             retention requirement for Title IV programs and mandate the
                           retention of original documents for certain categories of records.

                           The last sentence of Section 443(a) of GEPA, 20 U.S.C. § 1232f(a),
                           would be amended to read as follows (amended language is
                           italicized):

                               The recipient shall maintain such records for three years
                               after the completion of the activity for which the funds
                               are used, except that eligible institutions participating in
                               the programs authorized under Title IV of the Higher
                               Education Act shall maintain such records for five years
                               following the student’s last day of attendance at the
                               institution in the case of the Federal Family Education
                               Loan Program or Federal Direct Loan Program and five

                                         Page 48
                                               U.S. Department of Education
                                                Office of Inspector General
                                                                 S15-60006



    years after the end of the award year to which the record
    relates in the case of all other Title IV programs. For any
    record that contains a signature, seal, certification or other
    image or mark required to validate the authenticity of its
    information, the record must be maintained in its original
    format for the duration of the required retention period.

Alternatively, the substantive amendments could be made in the
HEA, with minimal change to GEPA. The GEPA provision would
be amended as follows:

    The recipient shall maintain such records for three years
    after the completion of the activity for which the funds
    are used, except for institutions participating in the
    programs authorized under Title IV of the Higher Education
    Act, which shall maintain such records for the periods
    prescribed therein.

The HEA, 20 USC §1094, would be amended to add a subsection
(f), as follows:

    (f) Record Retention

    Eligible institutions participating in the in the
    programs authorized under this Title shall maintain all
    required records for five years following the student’s
    last day of attendance at the institution in the case of
    the Federal Family Educational Loan Program and the
    Federal Direct Loan Program and five years after the
    end of the award year to which the record relates in the
    case of all other Title IV programs. For any record
    that contains a signature, seal, certification or other
    image or mark required to validate the authenticity of
    its information, the record must be maintained in its
    original format for the duration of the required
    retention period.




             Page 49
                                                                     U.S. Department of Education
                                                                     Office of Inspector General
                                                                                       S15-60006



                    Most of OIG’s criminal and civil fraud investigations target
 Why Current Law
                    vocational trade schools that participate in one or more of the grant
Should Be Changed
                    and loan programs under Title IV of the HEA. The design of the
                    programs and the manner in which they are administered leaves most
                    of the critical documentation justifying the receipt by the schools of
                    federal funds in the possession and control of the schools
                    themselves. Without these documents, most investigations would
                    not result in successful prosecutions.

                    The cases of institutional program fraud investigated by the OIG
                    may take more than three years to develop, because of the time it
                    takes to discover the fraud coupled with the period necessary to
                    perform the usually extensive work necessary to support a criminal
                    or civil fraud case. In addition to analyzing the documents for proof
                    or corroboration of the fraud itself, the documentary evidence must
                    be analyzed to determine the loss to the government for purposes of
                    sentencing under Federal Sentencing Guidelines in criminal fraud
                    cases and/or for purposes of establishing damages in civil fraud
                    cases. The OIG usually needs several years of institutional
                    documents for these purposes. OIG investigations will be limited
                    severely or thwarted altogether by lack of documentary evidence if
                    schools destroy their records after three years.

                    Furthermore, the records relating to student loans need to be
                    maintained by institutions for the full five-year period to ensure the
                    Department’s ability to confirm student eligibility for the loan.

                    The three-year record retention requirement applies to all institutions
                    regardless of the type of institution, its track record in the programs
                    or any history of compliance problems. An alternative approach
                    would be to amend GEPA and/or the HEA to carve out a five-year
                    retention period for non-degree-granting trade and technical schools
                    (a “proprietary institution of higher education” or “postsecondary
                    vocational institution,” within the meaning of the HEA), for
                    institutions provisionally certified, for institutions on reimbursement,
                    or for institutions subject to administrative action within the previous
                    five years.

                    The record retention regulations currently in force do require that all
                    records be maintained for the duration of any program review, audit
                    or investigation, and this requirement should certainly be retained.
                    However, it is not always sufficient to protect the federal interest if

                                   Page 50
                                                 U.S. Department of Education
                                                 Office of Inspector General
                                                                   S15-60006



the school is unaware of the existence of an OIG investigation. In
many cases, it is not in the government’s interest for the schools to
be made aware of a pending investigation until appropriate
preliminary evidence has been collected in the case. The current
three-year retention requirement could compromise an investigation,
if the case had to be disclosed prematurely to preserve documents
from destruction.

A related impediment to successful prosecution of program fraud is
the destruction of original documents containing signatures, seals,
certifications or other image or mark required to validate the
authenticity of its information. Recent amendments to Department
regulations permit schools to retain only imaged documents, not
originals. Many OIG investigations hinge on forgery, falsification or
other fraudulent alteration of documents required to establish
student eligibility for financial aid. The original document containing
the falsification or alteration is a critical piece of evidence to prove
the fraud, particularly in a criminal case. Where there has been
forgery, the original handwriting must be available to perform an
acceptable handwriting analysis, which in many cases is essential to
prove the forgery.

Many successful OIG investigations are based upon altered original
documents in student files. For example, in one case altered aid
applications and Institutional Student Information Record (ISAR), (a
document which is basis for determining a student’s eligibility for
federal financial aid) were made by cutting, pasting and using “white-
out.” These altered ISIRs were photocopied so that they looked
unaltered and submitted to support claims for reimbursement of Pell
Grants. The student files at the schools contained the original,
altered documents, which were crucial to the criminal case.
Numerous OIG criminal cases are based upon evidence of falsified
General Equivalency Diploma (GED), high school diplomas, tax
documents and other originals of materials found in student files at
schools. For example, an OIG investigation involved an altered
photocopy found in a student file; investigators were able to
distinguish different shades of ink to reveal the alteration, which
could not have been discovered from an imaged media format
reproduction.

       ‚    ‚     ‚       ‚   ‚


                Page 51
                                                                             U.S. Department of Education
                                                                             Office of Inspector General
                                                                                               S15-60006



                            The government should be able to prosecute fraud involving loans
Apply the Extended          made under the FDLP to the same extent as that involving loans
Statute of Limitation for   made under the FFELP. The Department makes the loan money
Financial Institution       available under the FDLP; however, it is not a “financial institution”
Fraud to the FDLP           within the meaning of 18 U.S.C. §20. Therefore, unlike in the
                            FFELP, the bank fraud statute with its extended 10-year statute of
                            limitations would not apply to fraud in the FDLP; nor would the 10-
                            year statute of limitations apply for wire and mail fraud and
                            racketeering affecting a financial institution.


                            Bank fraud, wire and mail fraud schemes, and racketeering affecting
     Current Law
                            financial institutions are subject to a 10-year statute of limitations,
       Provides
                            18 U.S.C. §3293. Schemes and artifices to defraud a financial
                            institution may be prosecuted under the bank fraud statute, 18
                            U.S.C. §1344.

                            Federal law defines “financial institution” as an insured depository
                            institution, credit union, or other non-governmental entity within the
                            nine categories described in 18 U.S.C. §20. The definition does not
                            cover a federal agency or department that acts like a bank in making
                            money available for loans.


                            Amend the HEA to provide that loans made pursuant to the FDLP
  Suggested Legislative
                            will be treated like loans made by financial institutions for purposes
        Change
                            of financial institution offenses under 18 U.S.C. §3293 and for
                            purposes of bank fraud, 18 U.S.C. §1344. Language to this effect
                            could be added to section 451 or 452 of the HEA, 20 U.S.C.
                            §1087a, 1087b.


                            The amount of criminal fraud in the loan programs, particularly in
    Why Current Law
                            the trade and vocational school sector, outstrips the ability of the
   Should Be Changed
                            OIG, with fewer than 100 investigators nationwide, to address all
                            complex cases within the general five-year statute of limitations
                            period. The cases of institutional fraud affecting the loan programs
                            are complex and take substantial periods to investigate in a manner
                            sufficient to result in successful prosecution, including proof of the
                            fraud scheme, amount of the loss, and identification and seizure or
                            other recovery of available assets to reimburse the government for
                            its loss. Moreover, there are a number of important factors outside

                                          Page 52
                                                                            U.S. Department of Education
                                                                            Office of Inspector General
                                                                                               S15-60006



                       the control of OIG that often prolong the period necessary to bring
                       these complex cases to indictment, e.g., the limited resources and
                       competing priorities of federal prosecutors.

                       For these reasons, it has sometimes proven necessary in cases
                       involving the FFELP -- which uses money provided by private
                       lenders that fall within the statutory definition of “financial
                       institutions” -- to use the extended 10-year statute of limitations for
                       bank fraud, wire and mail fraud, and racketeering affecting a
                       financial institution. This would not be possible if the institution
                       involved were in the FDLP, because the FDLP uses federal funds
                       directly and does not use loan money from financial institutions.
                       Schools choose whether to participate in the FFELP or the FDLP,
                       and exactly the same criminal behavior would potentially be subject
                       to a much longer statute of limitations if the school happened to be
                       in the FFELP.

                       OIG fraud cases overwhelmingly have involved proprietary trade and
                       vocational schools, and 41 percent of schools in the FDLP were
                       proprietary schools as of October 1996.13 The HEA should be
                       amended so that fraud committed at FDLP schools will have the
                       same consequences under the criminal law as that committed at
                       FFELP schools.


                                ‚    ‚     ‚       ‚   ‚




13   GAO 97-45, Student Loans, Selected Characteristics of Schools in Two Major Federal Loan
     Programs, January 1997.

                                         Page 53
